Docket No. 20-658

United States Supreme Court
SHERRI COHEN

Petitioner,
-againstEQUIFAX INFORMATION SERVICES LLC and
TRANSUNION LW

Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the
Second Circuit, No. 19-3063

PETITIONER'S RULE 15.6 REPLY TO RESPONDENTS RESPONSE
Sherri Cohen
Pro Se
P.O. Box 4171
Middletown, New York 10941
(845) 381-2775
myverypersonalpapers@grnalcom

January. 2021

TABLE OF CONTENTS
TABLE OF CONTENTS

1

TABLE OF AUTHORITIES

2

JURISDICTIONAL STATEMENT

3

PETITION'S REPLY TO TRANSUNION'S RESPONSE TO MY PETITION .. 4

1

TABLE OF AUTHORITIES
Cushman v. Trans Union Corp., 115 F.3d 220, 225 (3rd Cir. 1997)

4

Exxon Shipping Co. v. Baker, 554 U.S. 471, 487, 128 S.Ct. 2605 (2008)

4

Gorman v. Experian Information Solutions, Inc., No. 07 CV 1846(RPP),
2008 WL 4934047, at *5 (S.D.N.Y. Nov. 19, 2008)

4

Jones v. Experian Info. Solutions, Inc., 982 F.Supp.2d. 268 (S.D.N.Y. 2013)

4

Henson v. CSC Credit Servs., 29 F.3d 280, 287 (7th Cir. 1994)

4

Stevenson v. TRW Inc., 987 F.2d 288, 293 (5th Cir. 1993)

4

2

JURISDICTIONAL STATEMENT
This brief is filed pursuant to Supreme Court Rule 15.6 which allows Petitioners
to file replies to responses filed by Respondents to their Petitions.

3

PETITIONER'S REPLY TO TRANSUNON'S RESPONSE TO MY PETITION
TransUnion makes four arguments in its response to my petition for Write of
Certiorari. None of those is correct.
First, TransUnion argues that the Court should not hear this Writ because the
Second Circuit refused to consider the District Court's decision that TransUnion
conducted reasonable investigations of each of my disputes. For this, TransUnion cites
Exxon Shipping Co. v. Baker, 554 U.S. 471, 487, 128 S.Ct. 2605 (2008) for the
proposition that "it is the general rule, of course, that a federal appellate court does not
consider an issue not passed upon below." But this is part of the error of both the
District Court and the Second Circuit. The District Court did consider this issue and it
wrongly found that TransUnion "reasonably investigated" each of my disputes, as the
statute requires. See Fair Credit Reporting Act, 15 U.S.C. ยง1681 et seq. ("FCRA"). In
reaching that conclusion, the District Court determined that the type of investigation
TransUnion claimed to perform was legally sufficient. That is the error. What
TransUnion claimed was an investigation, and what the District Court agreed was a
reasonable investigation, was TransUnion relying on confirmation from the furnishers of
the information without any actual investigation by TransUnion. That violates the law as
interpreted by every other Circuit to rule on this issue: Gorman v. Experian Information
Solutions, Inc., No. 07 CV 1846(RPP), 2008 WL 4934047, at *5 (S.D.N.Y. Nov. 19,
2008) (citing Cushman v. Trans Union Corp., 115 F.3d 220, 225 (3rd Cir. 1997); Henson
v. CSC Credit Servs., 29 F.3d 280, 287 (7th Cir. 1994); Stevenson v. TRW Inc., 987
F.2d 288, 293 (5th Cir. 1993))Jones v. Experian Info. Solutions, Inc., 982 F.Supp.2d.
268 (S.D.N.Y. 2013). TransUnion's attempts to explain away these cases completely

4

contradicts the plain language of those cases and makes them into nonsense. In fact,
it's not possible to reasonably possible to conclude that the District Court's ruling that
such an investigation is a "reasonable investigation" under the statute is consistent with
these cases, like Jones and Cushman, which not only found such an "investigation" to
be not reasonable but found it to be evidence of intentional violation of the statute. This
is what the Court needs to fix or it will leave millions of consumers in the Second Circuit
without this key right to an independent investigation, and conflicts with every other
Circuit to consider the issue.1
Secondly, TransUnion argues that making a consumer who has sued under the
FCRA go through TransUnion's attorney to fix their credit during litigation cannot be the
basis of a lawsuit. That is incorrect, as I outlined in my petition. But even more to the
point, that isn't the fundamental problem here. The problem here is that TransUnion
took my credit report offline so it was no longer available to me or my creditors. That is
the primary issue even before reaching the second offense here, which is that
TransUnion's attorney had improper access to my credit and controlled whether or not
and when I could get it. In other words, TransUnion mischaracterizes my claim, as they
have done repeatedly throughout this litigation with all my claims. TransUnion pointing
to the Second Circuit decision doesn't make its claim any better either because the
Second Circuit likewise misinterpreted my claim regarding the litigation lock, which is
pointed out in my Writ and ignored by TransUnion.

1 In 2015, Equifax and TransUnion entered into an agreement with New York Attorney General Eric
Schneiderman to improve their consumer dispute procedures and to broadcast to consumers their rights
in a series of television ads in New York, but neither Equifax nor TransUnion did this and Schneiderman
left office. I raised this as part of my state law claims, but the District Court dismissed those without any
real analysis.

5

Third, TransUnion claims my allegations of being subject to different standards
as a result of my pro se status are unfounded or "false." But TransUnion provides no
explanation of how that is true. It never addresses a single one of the things I pointed
out, which do that I've been treated differently. Indeed, look at my Rule 15.8
Supplement, which highlights how I've repeatedly been denied the rights afforded by the
Rules of Civil Procedure, local rules, the Judge's own rules, and the normal rules of the
legal profession.2
Finally, TransUnion argues that the Court should not consider the question of
whether or not disputes filed with credit repair agencies should be considered disputes
under the FCRA. For this, TransUnion points to the Second Circuit's conclusion that I
abandoned that claim, but I never abandoned anything. Whether or not I filed disputes
and if those were properly evaluated is the very heart of my case and my appeal.
TransUnion's response/opposition to my writ should be ignored. It presents no
real arguments other than to tell the Court to rely on the Second Circuit, even though its
decision is full of errors. It fails to address the points I made in my Writ. It
mischaracterizes my arguments when it does address them and skips the fundamental
points. Finally, it ignores the vital importance of what the District Court has erroneously
done and how this will affect millions of consumers.
Respectfully submitted,

Sherri Cohen, Pro Se
Petitioner

2 Because Judge Rakoff has shown such unwillingness to follow the rules for a pro se party like myself, I
respectfully request that if the court does send this case back, that it send the case to a different judge or District
Court.

6

